September 28, 2007 

JO ANN FEINDT 
VICE PRESIDENT, GREAT LAKES AREA 

GLORIA E. TYSON 
DISTRICT MANAGER/POSTMASTER 
 CHICAGO DISTRICT 

SUBJECT:  Audit Report ­ Chicago District Financial Accountability 
          (Report Number FF­AR­07­254) 

This report addresses financial accountability in the Chicago District (project number 
07BD013FF000) and summarizes the results of our financial audits of 14 judgmentally 
selected stations and branches located within the district (Project Numbers 
07BD013FF001 ­ 07BD013FF013).  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxx.  As such, we will consolidate the results of that audit in this capping 
report but will not include the dollar value of any related issues as monetary impact in 
this report.  We will report those results under separate cover.  The U.S. Postal Service 
Office of Inspector General (OIG) performed these audits at the request of the District 
Manager/Postmaster, Chicago District, to assist in determining an accountability 
baseline for each unit.  These 14 units reported almost xxxxxxxxxxx of revenue through 
the Standard Accounting for Retail System for the period of April 1, 2006, through 
March 31, 2007. 

                                   Results in Brief 

Our audit disclosed significant weaknesses in the internal controls over financial 
operations at the 14 units we audited.  Specifically, internal controls over stamps, cash, 
and money orders were not in place and effective at 12 of the 14 units, resulting in 
$11.1 million of assets and accountable items at risk.  In addition, accountability 
balances were not fairly presented at six units, while seven units did not accurately 
collect and record $38,998 in revenue.  We also noted compliance issues related to 
untimely recording of post office box and caller service fees in the Web Box Activity 
Tracking System (WebBATS).  Finally, two units incurred expenses that were not 
allowable, reasonable, and necessary, and 11 units made disbursements that were not 
fully supported, resulting in $6,782 of questioned costs.  The cumulative results of our
Chicago District Financial Accountability                                          FF­AR­07­254 



accountability examinations, including overall shortages of $75,896 and overages of 
$110,076, are set forth in Appendix A.  Overall, we believe these conditions are 
attributable to a long­standing history of insufficient knowledge of financial policies and 
procedures, inadequate managerial accountability, and insufficient oversight. 

Until effective financial internal controls are in place and management provides 
sufficient oversight of unit financial operations, there is significant increased risk for loss 
of stamps, cash, and other assets, and an increased risk of unrecorded revenue.  We 
identified monetary impact totaling $121,676.  (See Appendix D.)  This amount included 
$110,534 in recoverable revenue loss related to stamp and cash shortages and post 
office box/caller service fees, $4,360 in unrecoverable revenue loss related to retail floor 
stock shortages, and $6,782 in questioned costs related to unsupported disbursements. 
Further, the internal control weaknesses placed $11.1 million of assets and accountable 
items at risk (a non­monetary impact).  We will report the monetary and non­monetary 
impacts in our Semiannual Report to Congress.  (See Appendix D for a summary.) 
Additionally, we made 13 referrals to the OIG Office of Investigations and one to the 
U.S. Postal Inspection Service for situations that warranted further examination. 

                                             Background 

Post offices are the initial level where the U.S. Postal Service recognizes revenue from 
operations.  The term “post offices” includes main offices, stations, and branches.  The 
postmasters or installation heads are responsible for collecting all receipts to which the 
offices are entitled, accounting for all funds entrusted to them, and ensuring the offices 
meet all accounting objectives. 

Handbook F­1, Post Office Accounting Procedures, November 1996 (updated with 
Postal Bulletin revisions through June 9, 2005), and the Postmaster/Field Guide, 
Version 5.0, provide the procedures postmasters and other installation heads must 
follow to meet the financial responsibilities of the installation.  Management suspended 
updates to Handbook F­1 on August 18, 2005, and plans to issue a revised handbook in 
FY 2008. 

In the latter part of FY 2006, the Chicago District was subject to negative media 
attention and increased scrutiny because of untimely mail processing and the resulting 
lapses in prompt delivery and overall service degradation.  In FY 2007, this scrutiny 
intensified and expanded to include national political attention and demands for the 
Postal Service to take immediate corrective action.  In addition to the service concerns, 
the district manager identified a problem with financial accountability in Chicago’s 
stations and branches.  In April 2007, taking a proactive approach to this problem, the 
district manager requested the OIG to conduct financial audits of Chicago’s stations and 
branches to assist the district in establishing an accountability baseline for each unit. 

The Chicago District is part of the Great Lakes Area, serves ZIP Code areas 606 
through 608, covers 255 square miles, and contains a population of over 3 million.



                                                 2 
Chicago District Financial Accountability                                                               FF­AR­07­254 



Chicago’s post offices deliver mail to 1.1 million households and businesses 6 days 
each week, and generate more than xxxxxxxxxxxxxxxxxxxxx from retail sales at 69 
neighborhood post offices. 

                            Objectives, Scope, and Methodology 

The objectives of our audit were to determine whether:

·    Internal controls over stamp accountability were in place and effective.
·    Stamp accountability balances were fairly presented at the 14 judgmentally selected 
     units.
·    Certain earned revenue was collected and accurately recorded.
·    Judgmentally selected unit expenses were allowable, reasonable, and necessary. 

To accomplish our audit objectives, we conducted limited scope financial audits at 14 
judgmentally selected Chicago stations and branches from April 18 through June 27, 
2007. 1  We selected these 14 sites for audit based on a series of risk factors, including 
revenue, expense, and stock levels.  Based on our risk factors, we assigned the units 
identified in Table 1 an assessment level of 5 (High): 

                       Unit Finance No.                    Unit Name                Revenue 
                          xxxxxxxxxx       Cardiss Collins Postal Store            xxxxxxxxxxxxx 
                          xxxxxxxxxx       Fort Dearborn Station                     xxxxxxxxxxxx 
                          xxxxxxxxx        Ontario Street Finance Station            xxxxxxxxxxxx 
                          xxxxxxxxxx       Uptown Station                            xxxxxxxxxxxx 
                          xxxxxxxxxx       Irving Park Station                       xxxxxxxxxxxx 
                          xxxxxxxxxx       Grand Crossing Postal Store              Xxxxxxxxxxxx 
                          xxxxxxxxxx       Rogers Park Station                      Xxxxxxxxxxxx 
                          xxxxxxxxxx       Loop Station                             Xxxxxxxxxxxx 
                          xxxxxxxxxx       Elmwood Park Branch                      Xxxxxxxxxxxx 
                          xxxxxxxxxx       Roberto Clemente Station                 Xxxxxxxxxxxx 
                          xxxxxxxxxx       Charles Hayes Station                      Xxxxxxxxxx 
                          xxxxxxxxxx       Norwood Park Station                     Xxxxxxxxxxxx 
                          xxxxxxxxxx       Lakeview Station                         Xxxxxxxxxxxx 
                          xxxxxxxxxx       Station E Finance Station                Xxxxxxxxxxxx 
                                                             xxxxx                 xxxxxxxxxxxxxx 
                        Table 1 – Selected Chicago District Stations and Branches 

At each unit, we conducted counts of the unit reserve, retail floor stock, and all 
individual accountabilities.  We observed closeout procedures and preparation of the 
bank deposit on various dates from April 18 through May 31, 2007.  We reviewed 
judgmentally selected FY 2007 transactions related to financial accounting and 
reporting, post office boxes/caller service, and disbursement transactions.  We traced 
1 
  The district Financial Control and Support (FCS) group is completing financial reviews at the remaining 55 stations 
the OIG did not audit.  Through July 2, 2007, the FCS group had completed 10 reviews and their results were 
consistent with the findings in this report.



                                                               3 
Chicago District Financial Accountability                                        FF­AR­07­254 



recorded financial transactions to and from supporting documentation and assessed the 
reliability of computerized data by verifying the computer records to source documents. 
We used Postal Service instructions, manuals, policies, and procedures as criteria to 
evaluate internal controls and data reliability.  We also evaluated whether the internal 
control structure over financial reporting and safeguarding of assets was implemented 
and functioning as designed.  Finally, at the request of the Chicago District Manager, we 
issued a memorandum to each unit containing our audit findings and suggestions in 
order to expedite remediation of the deficiencies identified. 

We conducted this audit from April through September 2007 in accordance with 
generally accepted government auditing standards and included such tests of internal 
controls as we considered necessary under the circumstances.  Those standards 
require that we plan and perform the audit to obtain sufficient, appropriate evidence to 
provide a reasonable basis for our findings and conclusions based on our audit 
objectives.  We believe that the evidence obtained provides a reasonable basis for our 
findings and conclusions based on our audit objectives.  We discussed our observations 
and conclusions with management officials on August 2, 2007, and included their 
comments where appropriate. 

                                      Prior Audit Coverage 

Since FY 2002, the OIG has issued 13 financial audit reports of units in the Chicago 
District and two audits of observations of statistical tests for the cost and revenue 
analysis.  (See Appendix B.)  In these audits, we identified significant, systemic financial 
weaknesses over stamp and cash accountability.  Generally, management agreed with 
the findings and recommendations.  However, as disclosed in this report, the Postal 
Service did not fully implement corrective actions or maintain compliance at the units we 
had previously audited, including the Grand Crossing Station and Cardiss Collins Postal 
Store. 

                                             Results 

Significant Financial Internal Control Weaknesses Were Identified 

Our audit disclosed significant internal control weaknesses related to stamps, cash, 
money orders, post office boxes, and disbursements.  Specifically, we noted systemic 
issues regarding safeguarding of and accountability for stamp stock, money orders, and 
cash; accurate and timely collection and recording of post office box and caller service 
fees; and adequate tracking and support of disbursements.  (We have summarized 
control weaknesses in Appendix C for each unit audited.)  These control weaknesses 
contributed to shortages of $75,896, overages of $110,076, and over $11 million in total 
assets and accountable items at risk.  (See Appendices A and D.) 

Based on our findings during this audit and the results of previous OIG audits in the 
Chicago District, we believe these conditions are attributable to a long­standing history



                                                4 
Chicago District Financial Accountability                                        FF­AR­07­254 



of insufficient knowledge of financial policies and procedures, inadequate managerial 
accountability, and insufficient oversight. 

Specifically, managers and craft employees often stated that they were unaware of 
financial procedures.  For example, at one exit briefing, a station manager stated that 
she was “clueless” regarding certain expense transactions.  In addition, numerous times 
during our audits, employees could not enter the results of our stamp and cash counts 
because they were not familiar with the new Point of Service (POS) system upgrades or 
certain stamp valuations, which significantly affected their ability to record the results of 
our accountability examinations.  District management agreed that managers often did 
not have sufficient knowledge of financial procedures.  Although various training classes 
had been provided, no formal, detailed financial training program was required for 
managers. 

Generally, unit managers also showed an unwillingness to accept accountability for unit 
operations and comply with prescribed procedures.  During individual site exit briefings 
for this audit, most station managers refused to sign documents certifying financial 
accountability for their units when presented to them by the District Finance Manager. 
In addition, corrective actions from previous audits were not sustained and the same 
issues often recurred.  (See Appendix B for a list of prior audit reports.)  For example, 
we reported in our FYs 2003, 2005, and 2006 audit reports of the Cardiss Collins Postal 
Store that the unit did not adhere to the requirements of authorized stock levels.  We 
found this condition still existed during our FY 2007 audit, despite our repeated findings 
and initial unit corrective actions. 

Finally, we believe there was insufficient managerial oversight of financial operations 
resulting from frequent turnover.  This issue was also raised in our FY 2005 audit report 
on the Cardiss Collins Postal Store, where management stated that personnel turnover 
had continued to hamper the unit’s compliance with financial procedures.  In a more 
recent example, employees at the Rogers Park Station had not used the unit reserve 
because it was never properly transferred to a new custodian after the previous 
custodian left the unit in 2006.  We identified similar occurrences at other stations 
throughout the city, including Roberto Clemente.  We discussed the issue of turnover 
with district management, who agreed and stated that oftentimes, personnel changes 
occurred for operational purposes.  While we understand that employee movement is 
often necessary, we believe that not all financial requirements including accountability 
transfers were properly completed when turnover occurred, and this negatively 
impacted financial operations. 

Consequently, until such long­standing practices regarding financial procedures are 
corrected and the financial controls are functioning as prescribed, the Postal Service 
has significantly increased the risk of financial losses in the Chicago District.




                                              5 
Chicago District Financial Accountability                                                    FF­AR­07­254 



Stamp Stock, Money Orders, and Cash 

Internal controls over stamps, cash, and money orders were not in place and effective 
at 12 of the 14 units. 2  In addition, accountability balances were not fairly presented at 
six units. 3  The following details some of the more significant individual examples 
demonstrating accountability deficiencies and insufficient knowledge of financial policies 
and procedures:

     ·   We found unit employees accepted stock directly into the retail floor, bypassing 
         the control of the unit reserve at both the xxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxx.  This practice placed $4.7 million of assets at risk.

     ·   Units did not properly account for all stamp stock on hand.  For example, we 
         identified numerous instances of ‘found’ and ‘lost’ stamp stock, including over 
         $38,000 in stamps and cash we found at xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.  The stock appeared to have been last 
         used in 1992.  At xxxxxx xxxxxxx, employees could not locate or account for 
         $23,507 in stamp stock identified as mobile unit accountability.

     ·   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
         xxxxxxxxxxxx 




2 
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. 
3 
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.



                                                    6 
Chicago District Financial Accountability                                        FF­AR­07­254 




                                             Redacted 




                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




    ·   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. 
        xxxxxxxxxxxxx 




                                                  Redacted 




                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                 7 
Chicago District Financial Accountability                                       FF­AR­07­254 




    ·   Supervisors at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.  As a result, the supervisors 
        were borrowing funds from the cash reserve to pay for food and drinks for the 
        carriers.  This resulted in a $314 shortage.

    ·   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 




                                                   Redacted 




                           xxxxx xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

    ·   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        nxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                               8
Chicago District Financial Accountability                                                  FF­AR­07­254 



Post Office Box and Caller Service Fees 

Revenues were not accurately collected and recorded at seven of the 14 units, 4 
resulting in $38,998 in uncollected revenue.  (See Appendix D.)  We also noted 
compliance issues related to timely recording of post office boxes and caller service 
fees in WebBATS.  The following details some of the more significant individual 
examples demonstrating accountability deficiencies and insufficient knowledge of 
financial policies and procedures:

     ·   Fees for post office boxes/caller service of $30,928 from calendar years 2002 
         through 2006 were not collected at xxxxxxxxxxxx.

     ·   Employees at five units did not record $8,070 of post office box payments in the 
         POS system.

     ·   Employees at seven units did not timely update post office box fee payments in 
         WebBATS.  If fees are not properly recorded, there is increased risk that future 
         customer fees will not be collected and errors and/or omissions will exist and not 
         be detected. 

Disbursements 

Unit expenses were not allowable, reasonable, and necessary at two 5  units, and 
disbursements were not fully supported at 11 6  units, resulting in $6,782 of questioned 
costs.  If supporting documentation is not adequately maintained, there is an increased 
risk that expenses are misstated and funds could be improperly disbursed.  The 
following details some of the more significant individual examples demonstrating 
accountability deficiencies and insufficient knowledge of financial policies and 
procedures:

     ·   At 11 units, we found Postal Service (PS) Forms 3533, Application and Voucher 
         for Refund, did not have adequate support, and employees did not properly 
         complete the required forms.

     ·   Thirteen units did not maintain individual records as required to monitor or track 
         entries to Account Identifier Code (AIC) xxx, Financial Differences­Overages, and 
         AIC xxx, Financial Differences­Shortages. 




4 

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. 
5 
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. 
6 
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.



                                                   9 
Chicago District Financial Accountability                                       FF­AR­07­254 



Recommendation 

We recommend the District Manager/Postmaster, Chicago District, in coordination with 
the Vice President, Great Lakes Area: 

1.  Develop and implement a mandatory financial training program for all unit managers 
    and supervisors. 

Management’s Comments 

Management agreed with the finding and recommendation and stated that the Great 
Lakes Area and Chicago District have partnered to provide additional financial training 
to all personnel involved with retail operations.  The training will be presented in tiered 
segments specifically designed to address the procedures involved in the scope of 
financial responsibilities and will begin in October 2007.  Management informed us in 
subsequent correspondence that the first round of training will be completed by January 
2008.  At that point, training for new supervisors will be developed and ongoing. 
Management also agreed with the monetary and non­monetary benefits. 
Management’s comments, in their entirety, are included in Appendix E. 

Recommendation 

We recommend the District Manager/Postmaster, Chicago District: 

2.  Establish a system to monitor compliance with financial procedures and establish 
    and enforce accountability for non­compliance. 

Management’s Comments 

Management agreed with the finding and recommendation and stated that by January 
2008, the Financial Control and Support analyst staff in the Chicago District will be 
increased to eight in order to develop personnel with the financial and analytical skills 
necessary to review and correct all aspects of financial discrepancies that occur at the 
unit level.  One analyst will be assigned per area and will be responsible to work with, 
assist, and coach management personnel at their stations in the resolution of all 
financial issues.  The District Finance Office, with Post Office Operations, will research 
and document issues requiring corrective actions that resulted from the financial 
reviews conducted by the District Finance Office.  Post Office Operations will then 
follow­up on those issues.  Finally, the Manager, Post Office Operations, will ensure that 
changes to station manager assignments are planned with the district’s finance office 
prior to the effective date of change in order to transfer accountability for the outgoing 
and incoming managers.




                                             10 
Chicago District Financial Accountability                                                             FF­AR­07­254 



Recommendation 

We recommend the District Manager/Postmaster, Chicago District: 

3.  Collect cash/stamp shortages 7  and post office box/caller service fees identified in the 
    individual site memoranda, as appropriate. 

Management’s Comments 

Management agreed with the finding and recommendation and stated that all but two 
letters of demand for the 27 employees identified have been issued and resolved for 
cash retained and unit cash reserve shortages.  The Chicago District Finance Office is 
monitoring the collection of all these debts and will complete the administrative portion 
of the debt issuance process by October 31, 2007.  Management also stated that they 
have collected all post office box and caller service fees for the xxxxxxxxxxxxxxxxxxx. 

Recommendation 

We recommend the District Manager/Postmaster, Chicago District: 

4.  Develop an action plan to correct the deficiencies noted at the individual stations and 
    branches, as disclosed in Appendix C to this report. 

Management’s Comments 

Management agreed with the finding and recommendation and stated that the units 
were required to develop an action plan outlining the actions taken to abate the 
problems and ensure compliance thereafter.  The Chicago District Finance office will 
also begin revisiting units randomly to conduct reviews of key internal controls as 
triggered by their financial data analysis.  This will begin in October 2007 and will be 
completed by the end of FY 2008. 

Recommendation 

We recommend the District Manager/Postmaster, Chicago District: 

5.  Provide a quarterly and annual summary of unit compliance with financial 
    procedures to the Great Lakes Area regarding remediation of the findings contained 
    in this report. 




7 
     Accountable employees may be personally responsible for repayment of the cash equivalent for stamp shortages.



                                                          11 
Chicago District Financial Accountability                                        FF­AR­07­254 



Management’s Comments 

Management agreed with the finding and recommendation and stated the Chicago 
District Finance office will establish a tracking process for all activities presented as 
corrective actions, and will provide a quarterly and annual summary report illustrating 
the improvement by each unit’s compliance with financial procedures and internal 
controls to the Great Lakes Area Finance office.  The first quarterly summary will be 
prepared and sent to the area office for Quarter 1, FY 2008. 

Recommendation 

We recommend the District Manager/Postmaster, Chicago District: 

6.  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
    xxxxxx. 

Management’s Comments 

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. 

Evaluation of Management’s Comments 

Management’s comments are responsive the recommendations, and actions taken and 
planned should correct the issues identified in the findings. 

The OIG considers all recommendations significant, and therefore requires OIG 
concurrence before closure.  Consequently, the OIG requests written confirmation when 
corrective actions are completed.  These recommendations should not be closed in the 
follow­up tracking system until the OIG provides written confirmation that the 
recommendations can be closed.




                                             12 
Chicago District Financial Accountability                                   FF­AR­07­254 



We appreciate the cooperation and courtesies provided by your staff.  If you have any 
questions or need additional information, please contact John G. Wiethop, Director, 
Field Financial – Central, or me at (703) 248­2100. 




John E. Cihota 
Deputy Assistant Inspector General 
 for Financial Accountability 

Attachments 

cc:     Patrick R. Donahoe 
        H. Glen Walker 
        Lynn Malcolm 
        Manager, Finance, Great Lakes Area 
        Manager, Accounting, Great Lakes Area 
        Manager, Finance, Chicago District 
        Vincent DeVito 
        Katherine S. Banks




                                             13 
Chicago District Financial Accountability                                                  FF­AR­07­254 



                      APPENDIX A.  SUMMARY OF ACCOUNTABILITY EXAMINATIONS 8 




                                                           Redacted 




8 

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx 
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.


                                                                     14 
Chicago District Financial Accountability                                               FF­AR­07­254 



                                             APPENDIX B.  PRIOR AUDITS 
Project Number       Report Title                                               Report Number      Date Issued 
06BD001FF069         Fiscal Year 2006 Financial Installation Audit ­ Cardiss        FF­AR­06­250            8/17/2006 
                     Collins Postal Store, Chicago, Illinois 
06BD001FF032         Fiscal Year 2006 Financial Installation Audit ­ Grand          FF­AR­06­133            4/11/2006 
                     Crossing Station, Chicago, Illinois 
05XD005FF000         Fiscal Year 2005 Financial Installation Audit ­ Cardiss        FF­AR­06­048             1/9/2006 
                     Collins Postal Store – Post Office Box Section – Chicago, 
                     Illinois 
05XD006FF000         International Merchant Purchase Authorization Card             FF­AR­06­038           12/30/2005 
                     Review ­ Chicago District 
05XD005FF000         Fiscal Year 2005 Financial Installation Audit ­ Cardiss        FF­AR­05­228            9/23/2005 
                     Collins Postal Store, Chicago, Illinois 
04XD005FF001         Fiscal Year 2004 Financial Installation Audit ­ Wacker         FF­AR­04­018             1/5/2004 
                     Drive Station, Chicago, Illinois 
03XD002FF097         Fiscal Year 2003 Financial Installation Audit ­ Chicago        FF­AR­04­011           10/31/2003 
                     Business Mail Entry Unit, Chicago, Illinois 
03XD004FF019         Fiscal Year 2003 Financial Installation Audit ­ Chicago        FF­AR­03­219            6/25/2003 
                     Main Office, Chicago, Illinois 
03XD006FF010         Fiscal Year 2003 Financial Installation Audit ­ Chicago        FF­AR­03­245            5/28/2003 
                     Contract Postal Unit #50, Chicago, Illinois 
02XD003FF049         Fiscal Year 2002 Financial Installation Audit – Chicago        FF­AR­03­076           11/20/2002 
                     Business Mail Entry Unit, Chicago, Illinois 
02XD012FF021         Fiscal Year 2002 Financial Installation Audits ­ Chicago       FF­AR­03­070           10/31/2002 
                     Philatelic, Chicago, Illinois 
02XD013FF014         Fiscal Year 2002 Financial Installation Audit ­ Chicago        FF­AR­03­063           10/31/2002 
                     #101 Contract Station, Chicago, Illinois 
01NA005FF030         Fiscal Year 2001 Chicago Stockyard Station, Chicago,           FF­AR­02­197            1/28/2002 
                     Illinois 
Total Financial Installation Audit Reports                                                      13 
06BD005FF005         Audit of Statistical Tests for Fiscal Year 2006 – Chicago      FF­AR­06­114            3/21/2006 
                     District Cost and Revenue Analysis, Chicago, Illinois 
02XD016FF002         Audit of Statistical Tests for Fiscal Year 2002 ­ Chicago      FF­AR­02­280             7/5/2002 
                     District Cost and Revenue Analysis, Chicago, Illinois 
Total Cost and Revenue Analysis Audit Reports                                                    2




                                                                  15 
Chicago District Financial Accountability                                                                                                                                                                                                                                                                                                                  FF­AR­07­254 



                                                    APPENDIX C.  AUDIT RESULTS BY STATION 




                                                                                                                                                                               xxxxxxxxxxxxxxxxxxxxxxxxxxx 
                                                     xxxxxxxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                             xxxxxxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                                                 xxxxxxxxxxxxxxxxxxxxxxxxx 
                                                                                                            xxxxxxxxxxxxxxxxxxxxxx 
                                                                                   xxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                          xxxxxxxxxxxxxxxxxxxxx 

                                                                                                                                                                                                                                                                                                                                   xxxxxxxxxxxxxxxxxxxx 
                                                                                                                                                        xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                              xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                      xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                            xxxxxxxxxxxxxxxxx 
                                                                                                                                      xxxxxxxxxxxxxx 




                                                                                                                                                                                                                                      xxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                                                                              xxxxxx 
         Finding Description 9                                                                                                                                                                                                                                                                                                                                                                                                        Criteria 
Units could not locate stamp stock and cash,                                                                                                                                                                                                                                                                                                                                                                            Handbook F­1, Section 486.3, November 
which were identified on PS Form 1412, Daily                                                                                          X                                                                        X                                                                                                                                                                                              x         1996 (updated with Postal Bulletin 
Financial Report.                                                                                                                                                                                                                                                                                                                                                                                                       revisions through June 9, 2005). 
Units did not properly account for stamp stock                                                                                                                                                                                                                                                                                                                                                                          Handbook F­1, Section 131. 
on PS Form 1412.  Stamps were found in                                              X                        X                                                                                                                        X                                       X                                                     X                                                                         x 
locked safe compartments. 
Units did not properly account for cash on PS                                                                                                                                                                                                                                                                                                                                                                           Handbook F­1, Section 151.43. 
Form 1412.  Cash was found in unused safe                                                                    X                                                                  X                                                     X                                                                                                                                                                       x 
compartments. 
Units did not conduct accountability                                                                                                                                                                                                                                                                                                                                                                                    Handbook F­1, Sections 487.3, 487.41, 
examinations of the unit cash reserve, unit                                                                                                                                                                                                                                                                                                                                                                             and 487.51. 
                                                      X                             X                        X                        X                  X                      X                              X                      X                X                      X                            X                        X                        X                    X                           xx 
reserve stock, and retail associates' cash 
retained as frequently as required. 
Units allowed retail floor stock to exceed the                                                                                                                                                                                                                                                                                                                                                                          Handbook F­1, Section 485.2. 
                                                      X                             X                        X                        X                  X                      X                              X                      X                X                      X                            X                        X                        X                    X                           xx 
2­week postage sales limit. 
Units did not document accountability                                                                                                                                                                                                                                                                                                                                                                                   Handbook F­1, Sections 487.32, 487.45, 
examinations counts on PS Form 3294, Cash             X                                                      X                        X                  X                      X                              X                                       X                      X                            X                        X                                             X                           xx        487.55, and 487.65. 
and Stamp Stock Count and Summary. 
Units did not record accountability                                                                                                                                                                                                                                                                                                                                                                                     Handbook F­1, Sections 487.32, 487.45, 
examinations on PS Form 3368,                         X                                                      X                        X                  X                      X                              X                                       X                      X                            X                        X                                             X                           xx        487.55, and 487.65. 
Accountability Examination Record. 
Units did not close inactive credits of retail                                                                                                                                                                                                                                                                                                                                                                          Handbook F­1, Section 487.41. 
                                                                                    X                        X                        X                                         X                              X                      X                X                                                   X                        X                                             X                           xx 
associates who no longer worked at the unit. 
Units did not establish stamp credit records’                                                                                                                                                                                                                                                                                                                                                                           Handbook F­1, Section 426.5.4. 
files for retail floor stock, unit reserve stock 
                                                      X                                                                                                                         X                              X                                                              X                                                     X                                                                         x 
accountability, unit cash reserve, and cash 
retained credits. 
Units did not use PS Form 3369, Consigned                                                                                                                                                                                                                                                                                                                                                                               Postmaster/Field Guide, Version 5.0, 
Credit Receipt, when assigning                                                                                                                                                                                                                         X                                                                            X                        X                                                x         pages 33 and 34, July 2006. 
accountabilities. 


9 
     An “X” indicates the condition noted in the Finding Description was identified at the respective station.

                                                                                                                                                                                                                                     16 
Chicago District Financial Accountability                                                                                                                                                                                                                                                                                                               FF­AR­07­254 




                                                                                                                                                                            xxxxxxxxxxxxxxxxxxxxxxxxxxx 
                                                  xxxxxxxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                          xxxxxxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                                              xxxxxxxxxxxxxxxxxxxxxxxxx 
                                                                                                         xxxxxxxxxxxxxxxxxxxxxx 
                                                                                xxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                       xxxxxxxxxxxxxxxxxxxxx 

                                                                                                                                                                                                                                                                                                                                xxxxxxxxxxxxxxxxxxxx 
                                                                                                                                                     xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                           xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                   xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                         xxxxxxxxxxxxxxxxx 
                                                                                                                                   xxxxxxxxxxxxxx 




                                                                                                                                                                                                                                   xxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                                                                           xxxxxx 
      Finding Description 9                                                                                                                                                                                                                                                                                                                                                                                                        Criteria 
Units did not transfer the unit reserve stock                                                                                                                                                                                                                                                                                                                                                                        Handbook F­1, Section 421. 
accountability when the previous reserve stock                                                                                                                                                              X                                                              X                                                                                                                               x 
custodian went to another station. 
Units bypassed unit reserve, and accepted                                                                                                                                                                                                                                                                                                                                                                            Handbook F­1, Sections 483.6 and 
                                                                                                                                                                                                            X                                       X                                                                                                                                                      x 
stock directly into the retail floor.                                                                                                                                                                                                                                                                                                                                                                                484.2. 
Units did not always complete or prepare PS                                                                                                                                                                                                                                                                                                                                                                          Handbook F­1, Sections 487.45, 487.55, 
Form 571, Discrepancies of $100 or More In         X                                                                               X                                                                                                                X                                                                                                                                                      x         and 487.65.3. 
Financial Responsibility, as required. 
Unit clerk traveled to a local currency                                                                                                                                                                                                                                                                                                                                                                              Handbook F­1, Section 151.41. 
exchange with approximately $600­$700 in                                                                                                                                     X                                                                                                                                                                                                                             x 
cash bag to obtain change for the unit. 
Units did not properly maintain or secure                                                                                                                                                                                                                                                                                                                                                                            Handbook F­1, Section 748. 
money orders.  Money orders were found in                                                                 X                                                                                                                        X                                       X                            X                        X                                                                         x 
locked safe compartments. 
Units did not properly complete or maintain PS                                                                                                                                                                                                                                                                                                                                                                       Handbook F­1, Section 372.1. 
                                                                                 X                        X                        X                  X                      X                              X                                       X                      X                            X                        X                        X                    X                           xx 
Form 3977, Duplicate Key Envelopes. 
Units did not verify or document, at least                                                                                                                                                                                                                                                                                                                                                                           Handbook F­1, Section 426.2.8. 
annually, that an employee's accountability                                                                                                                                  X                                                                      X                      X                            X                        X                                             X                           x 
keys did not open another's accountability. 
Units did not verify that locks and                                                                                                                                                                                                                                                                                                                                                                                  Handbook F­1, Section 372.5. 
combinations were changed when                                                                                                                                                                                                                      X                                                                            X                                             X                           x 
accountabilities were relinquished. 
Access to the unit cash reserve was not                                                                                                                                                                                                                                                                                                                                                                              Handbook F­1, Sections, 426.43 and 
                                                                                                          X                                                                                                                                                                X                                                                                                                               x 
restricted to cash reserve custodian.                                                                                                                                                                                                                                                                                                                                                                                486.1.2. 
Units did not properly secure cash, stamps,                                                                                                                                                                                                                                                                                                                                                                          Handbook F­1, Sections 422.1 and 482. 
                                                   X                             X                                                 X                  X                      X                              X                      X                X                                                                            X                                             X                           xx 
money order stock, and accountable items. 
Units did not assign and maintain appropriate                                                                                                                                                                                                                                                                                                                                                                        Handbook AS­805, Information Security 
access levels for employees in the POS                                                                                                                                                                                                                                                                                                                                                                               Services, Section 9­4.1., March 2002 
                                                                                 X                        X                        X                                         X                              X                                       X                                                   X                        X                                             X                           x 
financial reporting system.                                                                                                                                                                                                                                                                                                                                                                                          (updated with Postal Bulletin revisions 
                                                                                                                                                                                                                                                                                                                                                                                                                     through September 29, 2005). 
Units did not keep the WebBATS up­to­date.                                                                                                                                                                                                                                                                                                                                                                           United States Postal Service letter, Web 
                                                                                 X                                                 X                                                                        X                      X                X                                                                            X                                             X                           x         Box Activity Tracking System 
                                                                                                                                                                                                                                                                                                                                                                                                                     Compliance, issued July 7, 2006. 
Units did not adequately separate post office                                                                                                                                                                                                                                                                                                                                                                        Handbook F­1, Section 132.1.
                                                   X                             X                                                                                                                                                 X                                       X                                                                                                   X                           x 
box duties. 




                                                                                                                                                                                                                                  17 
Chicago District Financial Accountability                                                                                                                                                                                                                                                                                                               FF­AR­07­254 




                                                                                                                                                                            xxxxxxxxxxxxxxxxxxxxxxxxxxx 
                                                  xxxxxxxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                          xxxxxxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                                              xxxxxxxxxxxxxxxxxxxxxxxxx 
                                                                                                         xxxxxxxxxxxxxxxxxxxxxx 
                                                                                xxxxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                       xxxxxxxxxxxxxxxxxxxxx 

                                                                                                                                                                                                                                                                                                                                xxxxxxxxxxxxxxxxxxxx 
                                                                                                                                                     xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                           xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                   xxxxxxxxxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                         xxxxxxxxxxxxxxxxx 
                                                                                                                                   xxxxxxxxxxxxxx 




                                                                                                                                                                                                                                   xxxxxxxxxxxx 




                                                                                                                                                                                                                                                                                                                                                                                                           xxxxxx 
       Finding Description 9                                                                                                                                                                                                                                                                                                                                                                                                       Criteria 
Units did not enter post office box/caller                                                                                                                                                                                                                                                                                                                                                                           Handbook F­1, Section 131. 
                                                                                 X                                                 X                                                                        X                                                                                                                    X                                             X                           x 
service payments into the POS system. 
Units did not collect post office box/caller                                                                                                                                                                                                                                                                                                                                                                         Postal Operations Manual, Issue 9, July 
service fees from customers with caller                                                                                                                                                                                                                                                                                                                                                                              2002 (updated with Postal Bulletin 
                                                   X                                                                                                                                                                               X                                                                                                                                                                       x 
service.                                                                                                                                                                                                                                                                                                                                                                                                             revisions through December 7, 2006, 
                                                                                                                                                                                                                                                                                                                                                                                                                     Section 842.212. 
Units did not properly perform closeout                                                                                                                                                                                                                                                                                                                                                                              Postmaster/Field Guide, Version 5.0, 
                                                   X                                                      X                        X                  X                                                     X                      X                X                      X                            X                        X                                             X                           xx 
procedures.                                                                                                                                                                                                                                                                                                                                                                                                          page 51. 
Units did not match the appropriate AIC for                                                                                                                                                                                                                                                                                                                                                                          Handbook F­1, Section 333.2. 
disbursements reported on the POS system                                                                                           X                                                                        X                                                                                                                                                                                              x 
printout report with supporting documentation. 
Units did not properly document refunds on                                                                                                                                                                                                                                                                                                                                                                           Postmaster/Field Guide, Version 5.0, 
PS Form 3533 and verify disbursement               X                             X                        X                        X                                         X                              X                      X                X                      X                                                     X                                             X                           xx        page 165. 
transactions were supported. 
Units did not monitor and resolve financial                                                                                                                                                                                                                                                                                                                                                                          Postmaster/Field Guide, Version 5.0, 
                                                   X                             X                                                 X                  X                      X                              X                      X                X                      X                            X                        X                        X                    X                           xx 
differences.                                                                                                                                                                                                                                                                                                                                                                                                         pages 106 and 107.




                                                                                                                                                                                                                                  18 
Chicago District Financial Accountability                                               FF­AR­07­254 




APPENDIX D.  SUMMARY OF MONETARY AND NON­MONETARY 
                        BENEFITS 

This table presents the monetary and non­monetary impact identified during the audit, 
rounded to the nearest dollar.  These funds will be reported in our Semiannual Report to 
Congress. 


                                             MONETARY IMPACT 
Finding                                             Recoverable       Unrecoverable     Questioned 
  No.                   Finding Title              Revenue Loss       Revenue Loss        Costs 

    1        Retail Floor Stock Shortages                                     $4,360 
    1        Unit Cash Reserve Shortages                    $1,150 
    1        Unit Reserve Shortages                         42,639 
    1        Other Segment Shortages                        26,706 
    1        Cash Retained Shortage                          1,041 
    2        Uncollected Post Office Box 
                                                            38,998 
             Revenue 
    3        Unsupported Disbursements                                                           $6,782 
                    TOTAL                                 $110,534            $4,360             $6,782 
               GRAND TOTAL                                                                     $121,676




                                         NON­MONETARY IMPACT 
           Finding                                                      Assets/Accountable 
             No.                         Description                       Items At Risk 
              1        xxxxxxxxxxxxxxxxxxxx xxxxxxxxxxxxxxxxxxxxxx               $4,100,000 
              1        Stock Accepted Directly to the Retail Floor                4,737,587 
              1        Improperly Secured Stamp Stock                                69,039 
              1        Cash Found in Unused Safe Compartments                         1,046 
              1        Excess Stock Maintained in Retail Floor                      679,976 
              1        xxxxxxxxxxxxxxxxxx xxxxxxxxxxxx                            1,551,600 
                                    TOTAL                                       $11,139,248 




                                                    19 
Chicago District Financial Accountability                FF­AR­07­254 



                    APPENDIX E.  MANAGEMENT’S COMMENTS




                                             20 
Chicago District Financial Accountability         FF­AR­07­254 




                                             21
Chicago District Financial Accountability         FF­AR­07­254 




                                             22
Chicago District Financial Accountability         FF­AR­07­254 




                                             23
